IN THE COURT OF COMMON PLEAS OF CRAWFORD COUNTY, PENNSYLVANIA ^
Criminal Division
COMMONWEALTH

^9 APR 15 PH It: Qlf
*

■*.

C.R. No. 463-2018 C^QR0CO^SpA

vs.
VIRGINIA A. KURSCHINSKE
SENTENCE
ANTHONY J. VARDARO, P.J.

AND NOW, April 12, 2019, upon a verdict of guilty to unsworn
falsification to authorities as a misdemeanor of the second degree, the Sentence of
the Court is that you pay costs, a $100 fine and you are placed on probation for a
period of six months subject to the following terms and conditions:
1.

You shall comply with the general rules, regulations and conditions
governing parole, probation and supervision in Crawford County pursuant to Crawford
County Local Criminal Rule C708.
2.

You will pay an Offender Supervision fee of $45 for each month or
portion of the month that you were supervised except the Adult Probation/Parole
Department may waive that fee for any month or months they determine you are
unable to do so despite your best efforts to do so.
BY THE COURT

Anthony J. Vardaro, P.J.

Attorney for the Commonwealth: Craig Howe, Esquire, ADA
Attorney for the Defendant: Eric Paden, Esquire
OTN: U 579917-2
Imk
Date Submitted: 4/15/19

‘A"

Vt

IN THE SUPREME COURT OF PENNSYLVANIA
WESTERN DISTRICT
COMMONWEALTH OF PENNSYLVANIA,

No. 100 WAL 2020

Respondent
Petition for Allowance of Appeal
from the Order of the Superior Court

v.

VIRGINIA ANN KURSCHINSKE,
Petitioner

ORDER

PER CURIAM
AND NOW, this 15th day of September, 2020, the Petition for Allowance of Appeal
is DENIED.

A True Copy Patricia Nicola
As Of 09/15/2020

Attest: ________________ _
Chief Clerk
“
Supreme Court of Pennsylvania

11

O

J-S58033-19
NON-PRECEDENTIAL DECISION - SEE SUPERIOR COURT I.O.P. 65.37
COMMONWEALTH OF PENNSYLVANIA

IN THE SUPERIOR COURT OF
PENNSYLVANIA

v.

VIRGINIA ANN KURSCHINSKE
No. 717 WDA 2019

Appellant

Appeal from the Judgment of Sentence Entered April 12, 2019
In the Court of Common Pleas of Crawford County Criminal Division at
No(s): CP-20-CR-0000463-2018
BEFORE: PANELLA, P.J., BENDER, P.J.E., and DUBOW, J.
FILED NOVEMBER 27, 2019

MEMORANDUM BY DUBOW, J.:

Appellant, Virginia Ann Kurschinske, appeals pro se from the April 12,
2019 Judgment of Sentence entered in the Crawford County Court of Common
Pleas following her conviction of Unsworn Falsification to Authorities.1
Appellant challenges, inter alia, the weight of the evidence.

After careful

review, we affirm.
The relevant facts and procedural history are briefly as follows.
Appellant is the former manager of Spanky's Tobacco World ("Spanky's") in
Titusville, Crawford County.2

Spanky's sells, among other things, lottery

tickets. The Pennsylvania Lottery noticed abnormally high scratch-off lottery
ticket sales at Spanky's.

Consequently, on May 3, 2017, the Pennsylvania

1 18 Pa.C.S § 4904(a)(2).
2 Spanky's also employed Amanda Hicks.

J-S58033-19

Lottery sent Jason Donmoyer ("Donmoyer"), a Retail Compliance Investigator
to investigate the irregularity.
On that day, Appellant was working behind the counter at Spanky's, and
proceeded to falsely identify herself to Donmoyer as "Amanda."

She also

signed the name "Amanda Hicks" on a verification form that Donmoyer gave
to her. By signing this form, Appellant acknowledged that she had received
the Lottery's official form explaining its policy concerning retailers and retail
employees purchasing and claiming winning lottery tickets.3 Appellant initially
denied that she had authority to activate scratch-off lottery tickets and had
access to the locked filing cabinet in which Spanky's kept its lottery inventory,4
but later unlocked it for inventory inspection by Donmoyer.
Ultimately, Appellant revealed to Donmoyer that she was not, in fact,
Amanda Hicks, and instead she identified herself as "Jen Kurschinske."5
Donmoyer returned the verification form Appellant had falsely signed as
"Amanda Hicks" to Appellant and she then signed the form, on the same line
where she had falsely signed the name "Amanda Hicks," with the name Jen
Kurschinske.

3 This is the Lottery's "Prohibitive Retailer Claiming Policy" form.
4 Appellant claimed that only two Spanky's employees—Jeff Clifton, the owner,
and Jill, the manager who works on Sundays—could activate the scratch-off
lottery tickets, and that only Clifton and Jill had access to the locked lottery
inventory filing cabinet.
5 Apparently, even though Appellant's first name is Virginia, unbeknownst to
Donmoyer, she commonly went by the first name Jen or Jennifer.
- 2 -

J-S58033-19

As a result of Appellant's deception, the Commonwealth charged her
with one count each of Forgery and Unsworn Falsification to Authorities.
Appellant, represented by counsel, proceeded to a jury trial where the
Commonwealth presented the testimony of, inter alia, Donmoyer and Amanda
Hicks. Relevantly, Donmoyer testified that he arrived at Spanky's in the late
morning or early afternoon and two store employees were working.

N.T.,

3/11/19, at 23. Donmoyer testified that he identified himself to Appellant by
saying his name and showing her his photo ID badge and business card, and
explained the purpose of his visit. Id. at 24-25. Appellant identified herself
as "Amanda." Id. at 24. Donmoyer then reviewed the Prohibitive Claim Policy
with Appellant and gave her the form to sign acknowledging that she had read
the Prohibitive Claim Policy. Id. at 25-30. Donmoyer testified that Appellant
signed the acknowledgement form with the name "Amanda Hicks." Id. at 33.
Donmoyer also testified that Appellant told him that only the Spanky's owner
and its manager, Jill, had authority to access, activate, and order scratch-off
ticket inventory. Id. at 36-38. He testified that Appellant informed him that
she did not have access to the locked filing cabinet where Spanky's stored the
scratch-off lottery inventory.

Id. at 39.

Donmoyer denied threatening,

coercing, or intimidating Appellant into answering his questions. Id. at 38.
Donmoyer then testified that, because Appellant had identified herself
as Amanda Hicks and had indicated that she did not have access to the locked
filing cabinet, he called Jeff Clifton, the store owner, who asked to speak with
the employee he believed was Amanda Hicks. Id. at 40-43. After Appellant
- 3 -

J-S58033-19

hung up the phone with Clifton, Donmoyer became aware that Appellant's
name was actually Jen Kurschinske.

Id. at 43.

Donmoyer testified that,

uncoerced by him, Appellant then signed the name "Jen Kurschinske" on the
acknowledgement form. Id. at 43, 46. Appellant proceeded to unlock the
filing cabinet containing the scratch-off lottery ticket inventory. Id. at 44-45.
Donmoyer testified that, as far as he knows, Spanky's does not have an
employee named "Jill." Id. at 43.
At the close of the Commonwealth's case, Appellant moved for a
judgment of acquittal pursuant to Pa.R.Crim.P. 608, which the trial court
granted as to the Forgery charge only.
Relevant to the instant appeal, Appellant testified on her own behalf.
She described herself as "rattled" on the day of Spanky's inspection.

N.T.,

3/12/19, at 27. She testified that she was initially skeptical that Donmoyer
worked for the Pennsylvania Lottery because she had never met him before,
she thought it was possible that his identification was inauthentic, and he
looked "really shabby."

Id. at 14, 27-29.

She admitted that she wrote

Amanda Hicks's name that day, but explained that she was in a hurry to leave
Spanky's and she thought she was merely writing the name of a Spanky's
contact person on a piece of scrap paper. Id. at 30, 32-33. She denied ever
having seen the verification form or writing her name or Amanda Hicks's name
on it, and suggested that someone had traced Amanda Hicks's name onto the
verification form. Id. at 31-32.

- 4 -

J-S58033-19

Following Appellant's two-day trial, on March 12

2019, the jury

convicted Appellant of Unsworn Falsification to Authorities. On April 12, 2019,
the court sentenced Appellant to six months' probation. On April 15, 2019,
Appellant filed a Post-Sentence Motion challenging the weight of the evidence,
which the court denied on April 17, 2019. On May 8, 2019, Appellant filed a
timely pro se Notice of Appeal.
On May 16, 2019, counsel filed in the trial court a Motion to Withdraw
Appearance alleging that Appellant had communicated to counsel that she no
longer wanted counsel to represent her. Motion, 5/16/19, at H 1. Accordingly,
the trial court scheduled a hearing pursuant to Commonwealth v. Grazier,
713 A.2d 81 (Pa. 1998). On May 28, 2019, Appellant filed pro se a Pa.R.A.P.
1925(b) Statement. Following the Grazier hearing, on June 6, 2019, the trial
court entered an Order granting counsel's Motion to Withdraw. The court filed
a Rule 1925(a) Opinion.6
Appellant raises the following issue on appeal, which we have set forth
verbatim:
Whether the Lower Court erred when it refused to acquit Ms.
Kurschinske of all counts under Rule 608. The document was not
an unsworn document to be notarized, or relating to unsworn
falsification to authorities, where no signature would be made
subject to the penalties of 18 Pa.C.S. § 4904 there was no
pursuant to a form bearing notice or authorized by law under such
penalties. The only stoppage to the Lottery Compliance Specialist,
6 Appellant's Rule 1925(b) "Concise Statements of Errors Complained of on
Appeal" is 14 pages long and is nearly incomprehensible. The trial court
heroically parsed out some of the issues before concluding none of them have
merit. SeeTr. Ct. Op, filed June 13, 2019.
- 5 -

J-S58033-19

was the business owners approval, once approved, the
Compliance was completed and the store passed and the lottery
compliance Mr. Donmoyor left. The name Amanda Hicks, was an
additional name for contact purposes only to shift changes
regardless of who printed her name for such purpose. The only
person who could do legal relations under contract or have effect
to his contract, was the business owner Jeff Clifton. Define
"authorities"?
Appellant's Brief at 5.
Appellate briefs must conform materially to the requirements of the
appellate rules and this Court may quash or dismiss an appeal if the defect in
the brief is substantial. Commonwealth v. Adams, 882 A.2d 496, 497-98
(Pa. Super. 2005); Pa.R.A.P. 2101. This Court "will not act as counsel and
will not develop arguments on behalf of an appellant. Moreover, when defects
in a brief impede our ability to conduct meaningful appellate review, we may
dismiss

the

appeal

entirely

or

find

certain

issues

to

be

waived."

Commonwealth v. Hardy, 918 A.2d 766, 771 (Pa. Super. 2007) (citations
omitted). "Although this Court is willing to construe liberally materials filed
by a pro se litigant, a pro se appellant enjoys no special benefit."
Commonwealth v. Tchirkow, 160 A.3d 798, 804 (Pa. Super. 2017).
Accordingly, pro se litigants must comply with the procedural rules set forth
in the Pennsylvania Rules of the Court. Commonwealth v. Lyons, 833 A.2d
245, 251-52 (Pa. Super. 2003).
Our rules of appellate procedure provide, inter alia, that the "statement
of the questions involved must state concisely the issues to be resolved[.]"
Pa.R.A.P. 2116(a).

Our rules also provide that "[n]o question will be
- 6 -

J-S58033-19

considered unless it is stated in the statement of questions involved or is fairly
suggested thereby."

Id.

See also Pa.R.A.P. 2117 (delineating briefing

requirements for Statement of the Case); Rule 2119 (pertaining to division of
argument into a many parts as there are questions to be argued). In addition,
an appellant is required to provide a Statement of both the scope and standard
of review that is relevant to the issues raised. Pa.R.A.P. 2111(a)(3).
Finally, issues that are not developed in the argument section of an
appellate brief are waived. Harkins v. Calumet Realty Co., 614 A.2d 699,
703 (Pa. Super. 1992). To properly develop an issue for our review, Appellant
bears the burden of ensuring that his argument section includes citations to
pertinent authorities as well as discussion and analysis of the authorities. See
Pa.R.A.P. 2119; Hardy, 918 A.2d at 771 ("[I]t is an appellant's duty to
present arguments that are sufficiently developed for our review. The brief
must support the claims with pertinent discussion, with references to the
record and with citations to legal authorities." (citations omitted)).
Here, Appellant failed to comply with the above rules of appellate
procedure. The bulk of her 36-page brief is nearly-incomprehensible, raising
issues not at all suggested by her Statement of the Question Involved, and
not properly developed.

In addition, she provides a scope and standard of

review relevant to the review of suppression motion dispositions, an issue she
does not mention in her Brief. We recognize that Appellant is not an attorney,
however, she must still follow the rules of appellate procedure. As a result of

- 7 -

J-S58033-19

the significant briefing defects, we are unable to provide meaningful review of
all but one of her issues. Thus, Appellant's challenge to a photo array, see
Appellant's Brief at 12-13; her Brady7 challenge, id. at 3, 17; her allegation
of prosecutorial misconduct, id. at 14-15; her averment of violation of her 5th
and 6th Amendment rights and her due process rights, id. at 18-19, 22; and
her challenge to the jury instructions, id. at 28, are all waived.
In the actual argument section of her brief, id., at 34-37, Appellant
essentially challenges the weight the jury gave to the evidence. This issue is,
arguably, fairly suggested in the Statement of Question Presented. Appellant
contends that her "un-refuted account" that her"act[] of filling out a in service
[sic] questionnaire form was the product of a mistake and not the knowing
and intentional act of seeking to deceive." Id. at 36 (unpaginated). 8 She
claims that the evidence "is so weak and inconclusive that, as a matter of law,
no probability of fact can be drawn from the combined circumstances." Id.
She asserts that "it is uncontroverted that the only evidence reflective of the
state of mind of the accused was generated a whole year later by the
prosecutor and his theatrics, who falsely led the [jjury to believe there was
no Jill that worked at Spanky's Tobacco, when there definitely was a Jill who
team managed her own shift on Sunday and the states [sic] attorney using

7 Brady v. Maryland, 373 U.S. 83 (1963).
8

Appellant challenged the weight of the evidence in a Post-Sentence Motion.
- 8 -

J-S58033-19

harsh words." Id. at 37 (unpaginated). She concludes, therefore, that this
Court should reverse her conviction of Unsworn Falsification to Authorities as
"de [minimus] with confusion and mistakes while multitasking and juggling
customers." Id.
When considering challenges to the weight of the evidence, we apply
the following precepts.

"The weight of the evidence is exclusively for the

finder of fact, who is free to believe all, none[,] or some of the evidence and
to determine the credibility of the witnesses." Commonwealth v. Talbert,
129 A.3d 536, 545 (Pa. Super. 2015) (quotation marks and citation omitted).
Resolving contradictory testimony and questions of credibility are matters for
the finder of fact.

Commonwealth v. Hopkins, 747 A.2d 910, 917 (Pa.

Super. 2000). It is well-settled that we cannot substitute our judgment for
that of the trier of fact. Talbert, supra at 546.
Moreover, appellate review of a weight claim is a review of the trial
court's exercise of discretion in denying the weight challenge raised in the
post-sentence motion; this court does not review the underlying question of
whether the verdict is against the weight of the evidence. See id. at 545-46.
"Because the trial judge has had the opportunity to hear and see the evidence
presented, an appellate court will give the gravest consideration to the
findings and reasons advanced by the trial judge when reviewing a trial court's
determination that the verdict is [or is not] against the weight of the
evidence." Id. at 546 (citation omitted). "One of the least assailable reasons

-9 -

J-S58033-19

for granting or denying a new trial is the lower court's conviction that the
verdict was or was not against the weight of the evidence and that a new trial
should be granted in the interest of justice." Id. (citation omitted).
Furthermore, "[i]n order for a defendant to prevail on a challenge to the
weight of the evidence, the evidence must be so tenuous, vague[,] and
uncertain that the verdict shocks the conscience of the court." Id. (internal
quotation marks and citation omitted). As our Supreme Court has made clear,
reversal is only appropriate "where the facts and inferences disclose a palpable
abuse of discretion[.]"

Commonwealth v. Morales, 91 A.3d 80, 91 (Pa.

2014) (citations and emphasis omitted).
"[A] true weight of the evidence challenge concedes that sufficient
evidence exists to sustain the verdict but questions which evidence is to be
believed." Commonwealth v. Thompson, 106 A.3d 742, 758 (Pa. Super.
2014) (quotation marks and citation omitted). For that reason, the trial court
need not view the evidence in the light most favorable to the verdict winner,
and may instead use its discretion in concluding whether the verdict was
against the weight of the evidence. Commonwealth v. Widmer, 744 A.2d
745, 751 n.3 (Pa. 2000).
The jury chose to credit the testimony of Donmoyer over Appellant's
testimony that her "act[] of filling out a in service [sic] questionnaire form was
the product of a mistake and not the knowing and intentional act of seeking
to deceive." Appellant's Brief at 36. Appellant essentially asks us to reassess

- 10 -

J-S58033-19
the credibility of Donmoyer and Appellant, and reweigh the testimony and
evidence presented at trial. We cannot and will not do so. Our review of the
record shows that, contrary to Appellant's claim, the evidence is not so
tenuous, vague, or uncertain, and the verdict was not so contrary to the
evidence as to shock the court's conscience. Accordingly, we discern no abuse
of discretion in the trial court's denial of Appellant's weight claim.
Judgment of Sentence affirmed.
Judgment Entered.

bfP.
Joseph D. Seletyn, Esdk
Prothonotary

Date: 11/27/2019

- 11 -

pA
9:28 P.M.

Superior Court of Pennsylvania

Appeal Docket Sheet
Docket Number: 717 WDA 2019
Page 4 of 5
November 21, 2020
DOCKET ENTRY
Filed Date

Docket Entry / Representing

November 27, 2019

Affirmed

Participant Type

Filed By
Dubow, Alice B.

December 12,2019

Application for Reargument
Appellant

February 10, 2020

Kurschinske, Virginia A.

Order Denying Application for Reargument
Per Curiam

Comment: IT IS HEREBY ORDERED:
THAT the application filed December 12, 2019, requesting reargument of the decision dated November
27, 2019, is DENIED.
Petition for Allowance of Appeal to PA Supreme Court Filed

March 9, 2020

Appellant

Kurschinske, Virginia A.

Comment: 100 WAL 2020
Remitted

March 23, 2020

Superior Court of Pennsylvania
Remitted to Lower Court or Agency

March 23, 2020

Superior Court of Pennsylvania
September 15, 2020

Order Denying Petition for Allowance of Appeal to PA Supreme Court
Per Curiam

Comment: 100 WAL 2020
SESSION INFORMATION
Journal Number:
Consideration Type:
Listed/Submitted Date:

J-S58033-19
Submit Panel
October 15, 2019

Panel Composition:
President Judge
President Judge Emeritus
Judge

The Honorable Jack A. Panella
The Honorable John T. Bender
The Honorable Alice B. Dubow

DISPOSITION INFORMATION
Final Disposition:

Yes

Related Journal No:
Category:
Disposition:
Dispositional Filing:
Filed Date:

J-S58033-19
Decided
Affirmed
Memorandum
11/27/2019 12:00:00AM

Judgment Date:
Disposition Author:
Disposition Date:
Filing Author:

November 27, 2019
Dubow, Alice B.
November 27, 2019
Dubow, Alice B.

REARGUMENT / RECONSIDERATION / REMITTAL
Filed Date:
Disposition:
Disposition Date:

December 12, 2019
Order Denying Application for Reargument
February 10, 2020

Record Remittal:

March 23, 2020
Neither the Appellate Courts nor the Administrative Office of Pennsylvania Courts assumes any liability
for inaccurate or delayed data, errors oi omissions on the docket sheets.

a

* f fir

Supreme Court of iPennsfplbama

John A. Vaskov, Esq.
Deputy Protliouulary
Patricia A. Nicola
Chief Clerk

80! City-County Building
414 Grant Street
Pittsburgh, PA 15219
(412) 565-2816
www.pacourts.us

Western District

March 27, 2020
RE:

Commonwealth v. Kurschinske, V., Pet
No: 100 WAL 2020
Consolidated Cases:
Intermediate Court Docket No: 717 WDA2019
Trial Court: Crawford County Court of Common Pleas
Trial Court Docket No: CP-20-CR-0000463-2018

Dear Mr. Kulzer
This is to advise that a Petition for Allowance of Appeal was received in the above-captioned
matter.
Pursuant to Pa.R.A.P. 1116, an Answer, or a letter stating that an Answer will not be filed, to
the Petition for Allowance of Appeal (original and one copy) may be filed within fourteen days after
service of the Petition. An additional three days may be added if service was effectuated by mail
(Pa.R.A.P. 121(e)). Please note that in accordance with Pa.R.A.P. 121(c), service by mail is
complete on mailing, thus the time for filing an Answer runs from that date, not the date the
Petition was actually received.
The Office of the Prothonotary requests that all filers leave the original copy of any document
submitted for filing unbound. All remaining copies of answers should be bound in compliance
with Pa.R.A.P. 124 (a)(5).
Effective January 6, 2018, all filings must contain a certification of compliance with the Public
Access Policy of the Unified Judicial System. For more information, visit
www.pacourts.us/public-record-policies.
Very truly yours,
Office of the Prothonotary
/ dad
cc: Virginia A. Kurschinske
The Honorable Anthony J. Vardaro, Senior Judge

f

£

c

ii

/-

/>A

COURT OF COMMON PLEAS OF CRAWFORD COUNTY
DOCKET
Docket Number: CP-20-CR-0000463-2018

CRIMINAL DdCKET
Court Case
Commonwealth of Pennsylvania
v.
Virginia Ann Kurschinske
CASE INFORMATION

Page 1 of 7

Initiation Date; 04/27/2018

Date Filed: 06/04/2018

Judge Assigned:

Originating Docket No: MJ-30306-CR-0000107-2018

LOTN:

OTN: U 579917-2

initial Issuing Authority: Amy L. Nicols

Final Issuing Authority: Amy L. Nicols

Arresting Agency: Carry Psp

Arresting Officer: Hartman, Jason B.

Complaint/Incident #: PA18349860
Case Local Numberfst

Case Local Number Typefst

STATUS INFORMATION
Case Status:

Closed

Status Date
03/12/2019

Processing Status

01/09/2019

Awaiting Trial

Arrest Date:

04/27/2018

Complaint Date:

04/27/2018

Completed

06/21/2018

Awaiting Formal Arraignment

06/12/2018

Awaiting Pre-Trial Conference

06/04/2018

Awaiting Filing of Information

DEFENDANT INFORMATION
Citv/State/Zio: Titusville, PA 16354

12/19/1958

Date Of Birth:
Alias Name
Kurschinske, Virginia A,

CASE PARTICIPANTS
Participant Type

Name

Defendant

Kurschinske, Virginia Ann
BAIL INFORMATION
Nebbia Status: None

Kurschinske, Virginia Ann
Date

Bail Action

Bail Type

Percentage

Amount
Posting Date

Bail Posting Status
04/27/2018

Set

$5,000.00

Unsecured
CHARGES

Prig Seg.

Seg.

Grade

Statute

Statute Description

Offense Dt.

OTN

1

1

F3

18 §4101 §§A2

Forgery - Unauthorized Act In Writing

05/03/2017

U 579917-2

2

2

M2

18 § 4904 §§A2

Unsworn Falsification to Authorities Forged/Altered Document

05/03/2017

U 579917-2

DISPOSITION SENTENCING/PENALTIES
Disposition
Case Event
CPCMS 9082

Disposition Date

Final Disposition

WEfibh db''

Printed: 03/15/2019

Recent entries made in the court filing offices may not be immediately reflected on these docket sheets. Neither the courts of the Unified Judicial
System of the Commonwealth of Pennsylvania nor the Administrative Office of Pennsylvania Courts assume any liability for inaccurate or delayed
data, errors or omissions on these reports. Docket Sheet information should not be used in place of a criminal history background check which can
„„i., nmwMori hw the Pennsylvania State Police. Moreover an employer who does not comply with the provisions of the Criminal History Record

V

PA

COURT OF COMMON PLEAS OF CRAWFORD COUNTY
DOCKET
Docket Number: CP-20-CR-0000463-2018

CRIMINAL DbCKET
Court Case

Commonwealth of Pennsylvania
v.

Page 7 of 7

Virginia Ann Kurschinske ‘
Sequence Number

ENTRIES
Document Date

CP Filed Date

Service To

Filed By

Service By

Issue Date

Service Type

Status Date

Service Status

Crawford County District Attorney's
Office
E-Mail
02/21/2019
Parson, Matthew Curtis
02/21/2019

E-Mail

2

02/22/2019

Stevens, Mark D.

Order Granting Motion to Continue Trial
Crawford County Court Administration
E-Mail
02/22/2019
Crawford County District Attorney's
Office
E-Mail
02/22/2019
Crawford County Public Defender's
Office
E-Mail
02/22/2019
Parson, Matthew Curtis
E-Mail

02/22/2019
2

03/12/2019

Vardaro, Anthony J.

Judgment of Acquittal (Rule 608-All Counts)
1

03/13/2019

Vardaro, Anthony J.

Order Granting Aquittal of Judgment of Acquittal
CASE FINANCIAL INFORMATION
Last Payment Date:

Total of Last Payment:

Kurschinske, Virginia Ann

Assessment

Payments

Adjustments

Non Monetary
Payments

Total

$5.00

$0.00

$0.00

$0.00

$5.00

Costs/Fees Totals:

$5.00

$0.00

$0.00

$0.00

$5.00

Grand Totals:

$5.00

$0.00

$0.00

$0.00

$5.00

Defendant
Costs/Fees
Subpoena (Crawford)

** - Indicates assessment is subrogated

CPCMS 9082

Printed: 03/15/2019

Recent entries made in the court filing offices may not be immediately reflected on these docket sheets. Neither the courts of the Unified Judicial
System of the Commonwealth of Pennsylvania nor the Administrative Office of Pennsylvania Courts assume any liability for inaccurate or delayed
data, errors or omissions on these reports. Docket Sheet information should not be used in place of a criminal history background check which can
—I,. u„

k., *1— D„nr,o.,l..kklo

Online,

llmioron omnlm/nr u,hn rfnoo nnt mrrmhr iiuith (ho nrnwlcinnc nf tho Criminal Hktnrw Rernrri

PPr~

Claimant — VIRGINIA A KURSCHINSKE

Appeal — 17-09-£-B590

ORDER: The determination of the Unemployment Compensation Service Center is AFFIRMED The
claimant is ELIGIBLE for benefits under Section .402(e) of the Pennsylvania Unemployment Compensation
Law beginning with waiting weekending May 13,2017.
~
Lori Bell, Referee
DYO - 9138

Pursuant to the provisions of the Law, this referee decision shall become final on the date it was mailed to
the parties, unless any aggrieved party files a further appeal to the Pennsylvania Unemployment
Compensation Board of Review within the fifteen (15) day appeal period.
THE LAST DATE TO FILE AN APPEAL TO THIS DECISION IS 08/28/2017
IF YOU WISH TO FILE A FURTHER APPEAL
You have the right to file a further appeal to this decision within fifteen (15) days of the date of mailing. Your
appeal must include the following information: ►your name; >the claimant’s name and social security
number; ►the date of the decision being appealed; ►the reason for appeal; ►the appeal number; ►your
address. Under the provisions of Act 5 of 2005, you may file your own appeal, or your appeal may be filed
by an attorney or by any other advocate of your choice.
You may file your appeal by mail. If you file your appeal by mail, the appeal is filed as of the date of the U.S.
Postal Service postmark or a U.S. Postal Service form 3817 (Certificate of Mailing) or a U S. Postal Service
certified mail receipt. If there is no U.S. Postal Service postmark, the date of filing will be the date of a
postage meter mark on the envelope containing the appeal. If the appeal contains neither a postmark nor a
postage meter mark, the date of filing will be the date recorded by the Department when the appeal is
received. Your appeal should be mailed to the following address:
Department of Labor & Industry
UC Board of Review, Room 1119
651 Boas Street
Harrisburg, PA 17121

\

You may file your appeal by common carrier. |f you file your appeal by common carrier, the appeal is
filed on the date it is delivered to the common carrier as established by the records of the common carrier.
You should use the above address to send your appeal by common carrier.
You may file your appeal by fax. If you file your appeal by fax, it must be received by the Department by
11:59 p.m. on the last day to appeal. The filing date will be determined by the date of receipt imprinted by
the receiving fax machine. If there is no receipt date imprinted by the receiving fax machine, the sender's
fax banner will control the date of filing. If neither date appears on the fax, the date of receipt recorded by
the Department will serve as the date of filing. Your appeal should be faxed to the following number:
717-346-4484

UJ

*X

Y

fwa* zot* r/ksA, H
MS. KURSCHINSKE:

Correct.

And I was reading^

where it said complete, case closed and —
*%■

THE COURT:
MR. HOWE:

Okay.

Was it on the docket —

Your Honor, on the docketing sheet, it

said, judgment of acquittal on all counts.
THE COURT:

Okay.

I didn't know that,

That

was
MR. HOWE:

Yes.

We went to the Clerk of Courts.

I noticed it yesterday propping.
Kulzer.

It was — I informed Attorney

He went to the Clerk of Courts.

He indicated that at

the time they said that was the only way they knew how to input
it.

It was then changed, 1 believe, yesterday by Ms. Wetherbee

to just THE COURT:

Okay.

It was a clerical error,

basically.
MR. HOWE:

Yes.

MS. KURSCHINSKE:

Yes.
But I would have filed motions
a

J 4-

ii
LORI M. KUPNIEWSKI
OFFICIAL COURT REPORTER

—., I

u^

r» /-i +-

